                                                   NATIONAL SCIENCE FOUNDATION
                                                    OFFICE OF INSPECTOR GENERAL
                                                      OFFICE OF INVESTIGATIONS

                                               CLOSEOUT MEMORANDUM

 Case Number: 112080054                                                                     Page 1 of 1



         OIG Audit referred a situation to Investigations in which an institution 1 was un-auditab1e and
         there was the possibility for embezzlement, theft, and/or diversion of NSF grant funds by
         employees of this institution. We were unsuccessful in our attempts to verify financial
         information from this institution, and learned that NSF had been unsuccessful as well. We
         recommended that NSF suspend all awards to this institution until the financial condition could
         be determined. NSF warned this institution that, unless they cooperated, all NSF awards would
         be suspended. Subsequently, this institution replaced the majority of its senior positions,
         implemented new operating procedures, and is working with NSF's Cost Analysis and Audit
         Resolution Branch to reconcile prior questionable financial transactions. This institution appears
         to be working towards compliance and administering NSF awards in accordance with required
         standards.

         This case is closed with no further action taken at this time.




         1
             Fort Berthold Community College




NSF OIG Form 2 (11102)
